 Department of Health and Human Services
                    OFFICE OF 

               INSPECTOR GENERAL 





MEDICARE CONTRACTORS’ PAYMENTS 

       IN JURISDICTION 15

        TO PROVIDERS FOR 

    FULL VIALS OF HERCEPTIN 

     WERE OFTEN INCORRECT 



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon

                                                 Deputy Inspector General 


                                                       December 2012

                                                       A-05-12-00017 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov



 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY


BACKGROUND 


Herceptin, also known as trastuzumab, is a Medicare-covered drug used to treat breast cancer
that has spread to other parts of the body. Herceptin comes in a multiuse vial of 440 milligrams.
A multiuse vial contains more than one dose of medication and is labeled as such by the
manufacturer. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days.

For multiuse vials, Medicare pays only for the amount administered to a beneficiary and does not
pay for any discarded drug. Therefore, a payment for an entire multiuse vial is likely to be
incorrect. This audit is part of a nationwide review of the drug Herceptin. The pilot of these
reviews found that the Medicare contractor’s payments for full vials of Herceptin were often
incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services administers the program.

CGS Administrators assumed full responsibility as the Medicare contractor for Jurisdiction 15
(Ohio and Kentucky) effective October 17, 2011. During our audit period (January 2008 through
December 2010), National Government Services was the fiscal intermediary for Ohio and
Kentucky and processed 11,249 line items totaling approximately $20.6 million for Herceptin.
Of these 11,249 line items, 1,096 had unit counts in multiples of 44 (44, 88, 132, etc.) that
represent billings equivalent to entire multiuse vials. We reviewed 1,073 line items totaling
approximately $3.1 million. We did not review 23 line items associated with 1 provider that is
no longer in business. In this audit, we did not review entire claims; rather, we reviewed specific
line items within the claims that met these criteria.

Because CGS Administrators assumed responsibility for claims formerly paid by National
Government Services for Jurisdiction 15, we have addressed our findings and recommendations
to CGS Administrators for review and comment.

OBJECTIVE

Our objective was to determine whether payments that Medicare contractors made to providers
in Jurisdiction 15 for full vials of Herceptin were correct.

SUMMARY OF FINDINGS

Most Medicare payments that Medicare contractors made to providers in Jurisdiction 15 for full
vials of Herceptin were incorrect. Specifically, of the 1,073 selected line items, 916 (85 percent)
were incorrect and included overpayments totaling $1,151,915, or more than one-third of total
dollars reviewed. These providers had not identified or refunded these overpayments by the


                                                 i
beginning of our audit. Providers refunded overpayments on 54 line items totaling $125,216
before our fieldwork. The 103 remaining line items were correct.

On each of the 916 incorrect line items, the providers reported the units of service for the entire
content of 1 or more vial(s), each containing 440 milligrams of Herceptin, rather than reporting
the units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. The Medicare contractors made these incorrect payments because
neither the Fiscal Intermediary Standard System nor the Common Working File had sufficient
edits in place during our audit period to prevent or detect the overpayments.

RECOMMENDATIONS

We recommend that CGS Administrators:

   	 recover the $1,151,915 in identified overpayments,

   	 implement or update system edits that identify for review multiuse-vial drugs that are
      billed with units of service equivalent to the dosage of an entire vial(s), and

   	 use the results of this audit in its provider education activities.

CGS ADMINISTRATORS’ COMMENTS

In written comments on our draft report, CGS Administrators agreed with our findings and
recommendations and stated that it would ensure that all overpayment claims identified in the
audit are adjusted and finalized for payment recovery. CGS Administrators said it would
reconcile all adjusted claims and recoupments to verify that all overpayments are settled in full.
Additionally, CGS Administrators implemented a specific prepay edit to correct future
overpayments effective October 17, 2012, and posted a related notification article on its Web
site. Finally, CGS Administrators outlined steps that it is taking to address aberrant billing for
Herceptin in its educational sessions with providers.




                                                  ii
                                                   TABLE OF CONTENTS


                                                                                                                                      Page


INTRODUCTION.................................................................................................................... 1


      BACKGROUND ..................................................................................................................1

        Medicare Contractors......................................................................................................1 

        Claims for Drugs .............................................................................................................1 

        Herceptin.........................................................................................................................2 

        CGS Administrators and National Government Services ...............................................2 


      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................2 

        Objective .........................................................................................................................2 

        Scope...............................................................................................................................2 

        Methodology ................................................................................................................... 3 


FINDINGS AND RECOMMENDATIONS .............................................................................4 


      FEDERAL REQUIREMENTS .................................................................................. 4 


      OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED .......................4 


      CAUSES OF INCORRECT MEDICARE PAYMENTS .....................................................5 


      RECOMMENDATIONS ......................................................................................................5 


      CGS ADMINISTRATORS’ COMMENTS .........................................................................5 


APPENDIX

      CGS ADMINISTRATORS’ COMMENTS




                                                                     iii
                                                INTRODUCTION


BACKGROUND

Herceptin1 is a Medicare-covered drug used to treat breast cancer that has spread to other parts of
the body. Herceptin comes in a multiuse vial of 440 milligrams. A multiuse vial contains more
than one dose of medication and is labeled as such by the manufacturer. However, for multiuse
vials, Medicare pays only for the amount administered to a beneficiary and does not pay for any
discarded amounts. This audit is part of a nationwide review of the drug Herceptin. The pilot of
these reviews2 found that the Medicare contractor’s payments for full vials of Herceptin were
often incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services.3 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers’ claims for outpatient services, the
Medicare contractors use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF). The CWF can detect certain improper payments during prepayment
validation.

Claims for Drugs

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains line items that detail each provided service. Providers should
use the appropriate Healthcare Common Procedure Coding System (HCPCS) code for the drug
administered and report units of service in multiples of the units shown in the HCPCS narrative
description.4 Multiuse vials are not subject to payment for discarded amounts of the drug.
Multiuse vials are typically used for more than one date of service and can be stored for up to 28
days. Therefore, a payment for an entire multiuse vial is likely to be incorrect.
1
    Herceptin is Genentech’s registered trademark for the drug trastuzumab.
2
    Report number A-05-10-00091, issued July 10, 2012.
3
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
4
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                           1                                                          

Herceptin

Herceptin is a monoclonal antibody, one of a group of drugs designed to attack specific cancer
cells. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent of benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days.
When a patient is allergic to benzyl alcohol, sterile water without a preservative should be used
and any unused portion of the mixture discarded. The HCPCS code for Herceptin is J9355, with
a narrative description of “injection, trastuzumab, 10 mg.” An entire multiuse vial of
440 milligrams of reconstituted Herceptin when administered would be reported as 44 units for
Medicare billing.

CGS Administrators and National Government Services

CGS Administrators assumed full responsibility as the Medicare contractor for Jurisdiction 15
(Ohio and Kentucky) effective October 17, 2011. During our audit period (January 2008 through
December 2010), National Government Services was the fiscal intermediary for Ohio and
Kentucky and processed 11,249 line items for Herceptin in these States.

Because CGS Administrators assumed responsibility for claims formerly paid by National
Government Services for Jurisdiction 15, we have addressed our findings and recommendations
to CGS Administrators for review and comment.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether payments that Medicare contractors made to providers
in Jurisdiction 15 for full vials of Herceptin were correct.

Scope

During our audit period, Medicare contractors processed 11,249 outpatient Part B service line
items of Herceptin totaling approximately $20.6 million. Of these 11,249 line items, 1,852 had
unit counts with multiples of 44 (44, 88, 132, etc.) that represent billings equivalent to entire
multiuse vials. Of these 1,852 items, we reviewed 1,073 line items5 totaling approximately
$3.1 million. We did not review 23 line items associated with 1 provider that is no longer in
business. For the remaining 756 line items, National Government Services made final
adjustment on these claims prior to CGS Administrators assuming responsibility for Ohio
providers. Accordingly, we reviewed and reported these line items in report A-05-10-00091.



5
 Two of the 1,073 line items were included because they exceeded $10,000. While this did not represent a billing
equivalent to a full vial, this high-dollar item was included because it was likely to be incorrect.



                                                        2                                                          

We limited our review of CGS Administrators’ internal controls to those that were applicable to
the selected payments because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

Our fieldwork was conducted from November 2011 through March 2012 and included
contacting CGS Administrators in Louisville, Kentucky, and the 42 providers in Jurisdiction 15
that received the selected Medicare payments.

Methodology

To accomplish our objective, we:

   	 reviewed applicable Federal laws, regulations, and guidance;

   	 used CMS’s National Claims History file to identify outpatient line items in which
      payments were made for HCPCS code J9355 (Herceptin);

   	 identified 1,073 line items in our scope that the Medicare contractors paid to 42 

      providers; 


   	 contacted the 42 providers that received Medicare payments associated with the selected
      line items to determine whether the information conveyed in the selected line items was
      correct and, if not, why the information was incorrect;

   	 reviewed documentation that the providers furnished to verify whether each selected line
      item was billed correctly; specifically, we reviewed documentation to support:

           o	 the medical condition of the beneficiary in determining the necessity of the
              medication,

           o	 a physician’s orders for medication,

           o	 that the medication was administered, and

           o	 the type of solution used to reconstitute the Herceptin (BWFI containing
              1.1 percent benzyl alcohol or sterile water); 


      coordinated the calculation of overpayments with CGS Administrators; and 


      discussed the results of our review with CGS Administrators on July 24, 2012. 


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



                                                3                                                 

based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

Most Medicare payments that the Medicare contractors made to providers in Jurisdiction 15 for
full vials of Herceptin were incorrect. Specifically, of the 1,073 selected line items, 916
(85 percent) were incorrect and included overpayments totaling $1,151,915, or more than
one-third of total dollars reviewed. These providers had not identified nor refunded these
overpayments by the beginning of our audit. Providers refunded overpayments on 54 line items
totaling $125,216 before our fieldwork. The remaining 103 line items were correct.

On each of the 916 incorrect line items, the providers reported the units of service for the entire
content of 1 or more vial(s), each containing 440 milligrams of Herceptin, rather than reporting
the units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. The Medicare contractors made these incorrect payments because
neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in place during
our audit period to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “… providers must use HCPCS codes … for most outpatient services.”
According to chapter 17, section 70, of the Manual, when a provider is billing for a drug
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 mg, and 200 mg are
provided, units are shown as 4 ….”

Chapter 17, section 40, of the Manual also states: “[m]ulti-use vials are not subject to payment
for discarded amounts of drug ….” Finally, chapter 1, section 80.3.2.2, of the Manual states: “In
order to be processed correctly and promptly, a bill must be completed accurately.”

OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED

Providers reported incorrect units of service on 916 (85 percent) of the 1,073 line items
reviewed, resulting in overpayments totaling $1,151,915 (37 percent) of the $3.1 million total
dollars reviewed. Providers billed Medicare for the entire vial containing 440 milligrams of
Herceptin, rather than billing only for the amount actually administered.

For example, 1 provider administered 588 milligrams of Herceptin to a patient and billed for 88
units of service (880 milligrams). Based on the HCPCS description of Herceptin (injection,
trastuzumab, 10 milligrams), the number of units to be reported for 588 milligrams is 59.6 This


6
  If the drug dose used in the care of a patient is not a multiple of the HCPCS code dosage descriptor, the provider
rounds to the next highest unit based on the HCPCS long descriptor to report the dose.



                                                          4                                                            

error occurred on 51 separate occasions for 1 patient; as a result, the Medicare contractor paid
the provider $233,339 when it should have paid $149,972, an overpayment of $83,367.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors and to billing systems that
could not prevent or detect the incorrect billing of units of service. The Medicare contractors
made these incorrect payments because neither the Fiscal Intermediary Standard System nor the
CWF had sufficient edits in place to prevent or detect the overpayments. In effect, CMS relied
on beneficiaries to review their Medicare Summary Notice7 and disclose any overpayments.

RECOMMENDATIONS

We recommend that CGS Administrators:

    	 recover the $1,151,915 in identified overpayments,

    	 implement or update system edits that identify for review multiuse-vial drugs that are
       billed with units of service equivalent to the dosage of an entire vial(s), and

    	 use the results of this audit in its provider education activities.

CGS ADMINISTRATORS’ COMMENTS

In written comments on our draft report, CGS Administrators agreed with our findings and
recommendations and stated that it would ensure that all overpayment claims identified in the
audit are adjusted and finalized for payment recovery. CGS Administrators said it would
reconcile all adjusted claims and recoupments to verify all overpayments are settled in full.
Additionally, CGS Administrators implemented a specific prepay edit to correct future
overpayments effective October 17, 2012, and posted a related notification article on its Web
site. Finally, CGS Administrators outlined steps that it is taking to address aberrant billing for
Herceptin in its educational sessions with providers.

CGS Administrators’ comments are included in their entirety as the Appendix.




7
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.



                                                         5                                                            

APPENDIX 

                                                                                                                       Page 1 0[2
      APPENDIX: CGS ADMINISTRATORS' COMMENTS

Steven B. Smith
President & COO
CGS Administrators, LLC




November 5, 2012                                                                                   Two Vantage Way
                                                                                                   Nashvi lle, TN 37228
Report Number: A-05-12-000 17                                                                      Telephone: 615-244-5600
                                                                                                   Steve.Smith@ bebssc.com
Ms. Sheri L. Fulcher
Regional In spector General for Audit Services
Office of Inspector General, Region V
233 North Michigan, Su ite 1360
Ch icago, I L 6060 I


Dear Ms. Fulcher:

Thi s letter is in response to the recent Office of Inspector Genera l (OIG) draft report entitled Medicare
Contractors ' Paymeflls ill Jurisdiction 15 for Full Vials of Herceplin Were Often Incorrect. We
apprec iate the feedba ck yo ur review provided and are committed to contin uously improvin g our serv ice
to the Med icare beneficiaries and providers we serve.

As stated in the report'. CGS Administrators (CGS) assumed full responsibility as the Medicare
contractor for Jurisdiction 15 (Ohio and Kentucky) effective October 17,2011. During the audit period
(January 2008 through December 20 10), Nat ional Government Services was the fiscal intennediary for
Ohio and Kentucky and processed 11 ,249 line items totaling approximately $20.6 million for Herceptin.
Of these 11,249 line items, 1,096 had unit cou nts in multiples of 44, which represent billings equivalent
to 1 or more full mu ltiuse vials of Herceptin. The OIG reviewed 1,073 line items tota ling approxi mately
$3.1 million. The OIG did not review 23 line items associated with 1 provider that is no longer in
business. In th is aud it the OIG did not review entire claims; rather, reviewed spec ific line items within
the claims that met the criteria.

Of the \ ,073 se lected line items, 916 (85 percent) were identified by O IG as incorrect and included
overpayments totaling $\ , 151,915 . These providers had not identified or refunded these overpayments by
the beginnin g of the audit. Thus the fo llowing recommendati ons were presented to cas Administrators:

     • 	 recover the $1 , 15 1,91 5 in identified overpayments,
     • 	 imp lement or update system edits that identify for review multiuse-v ial drugs that are bil led with
         units of service equivalent 1'0 the dosage of an entire via l(s), and
     • 	 use the results of this audit in its provider education activ ities.

 Summary 'Of actions taken by cas:

     • 	 Recove r the 51, 151 ,915 identified overpayments.




C 2012, eGS AdminislIBlolS, LtC 

eGS AdministralOfS, LLC is a Medicare Pan A. 13. Home Health Md I-Iospice. 

and DME Medicare Adminislmti\'c ContraClor for thc Centers for Medicare & Mt.-dicaid Services. 

                                                                                                            Page 2 0[2



Ms. Sheri L. Fulcher
November 1, 2012
Page 2




           CGS Administrators' Response:
           COS wi ll en sure all overpayme nt c laim s identified in the audit are adju sted and finalized for
           payment recovery. As part of the 0 10 audit process, providers are notified and allowed to submit
           claim corrections for units initially billed, resulting in a recovery action initiated by provider. As
           a result, the amOllnt of recovery initiated by cas may vary from the original DIG recovery
           amount identified in the draft report. CGS will reconcile a ll adjusted claims and recoupments to
           veri fy that all overpayments are settled in fu ll.

     • 	 Implement or update system edits that identify for review muU'iusc-vial drugs that are
         billed with units of service equivalent to the dosage of an entire vial(s), and

           CGS AdministralOr,\" Response:
           CGS established a service specific prepay edit with an effective date of 10117112, Per 10M
           requ irements. a related notification article was posted to the web on same day as effective date
           httD:llcgsmedicare.com/ partaipubsinewsl20 121 10121707.html

     • 	 Use the results of this audit in its provider education activities.

           CGS Administrators ' Response:
             Correct coding has been and continues to be di scussed in each educational session. In our
              upcoming Ask the Contractor Teleconference (ACT), plans are establi shed to provide
             education related to bi ll ing I-Ierceptin .

                Based on data ana lysis, a comparative billing report (CBR) is bein g deve loped and will be
                posted to the cas web s ite by 111 16112. Each provider will be ran ked. The ranking number
                will be shared on ly with the corresponding provider.

                Effectiveness of prepay complex reviews will be assessed within three months of the edit
                effective date. or by the end of the first quarter of Option Year 2, whichever is greater. This
                data will be used to identify provider aberrancy in billing Herceptin. An education letter will
                be mailed to those providers identified as having billing issues. The individual provider
                specific CB R will also accompany thi s letter.

                Data from the CBR report wi ll be lIsed to establish a bas is for edit effectiveness reviews
                across other business segments within the J 15 contract.

Thank you for providing CGS Admin istrators with the opportun ity to offer feedback regarding your
review. If you have any questions, please do not hes itate to contact me.

Sincerely,


~~
Steven B. Smith
President & COO




o 20 12, CGS Adminislrntors, LLC 

CGS Administraloo, LLC is 8 Medicare Pan A. B, 1·lome Health and Hospice, 

and DME Medicare Administmtivc COOtrnclor ror the Centers for Medicare & Medicaid Services. 

